 Department of Health and Human Services
           OFFICE OF
      INSPECTOR GENERAL




USE   OF NURSING HOME AND MEDIGAP

                GUIDES





            +“       %
           ~w            JUNE GIBBS BROWN
           2             Inspector General
           2
           % #
             %.
             >+               MAY 1994
              %dya
                >           OEI-04-92-00481
                      OFFICE OF INSPECTOR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative

investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of

unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,

administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud

control units which investigate and prosecute fraud and patient abuse in the Medicaid program.


              OFFICE OF EVALUATION                    AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs.


OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,

Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.

Principal OEI staff included:


AtlantaRegion                                                 Headquarters

Betty Apt, Temn Leader                                        Tom Noplock

Kimberly Graves, Contractor                                   Barbara Tedesco

Peggy Daniel

Jacqueline Andrews

Josiah Townsel


For additional copies of this report, please contact the Atlanta Regional Office at 404-331 -

5022.

 Department of Health and Human Services
           OFFICE OF
      INSPECTOR GENERAL




USE   OF NURSING HOME AND MEDIGAP
                GUIDES
                   EXECUTIVE                             SUMMARY

PURPOSE

To determine       Medicare   beneficiaries’   awareness
                                                   and use of the Health Care Financing
Administration’s     Guide to Choosing a Nursing Home and Guide to Health Insurance for
People with Medicare.

BACKGROUND

The Office of the Assistant Secretary for Public Affairs, Department     of Health and
Human Services, asked us to examine departmental      strategies for distributing various
reports and publications to ensure they are received by intended users. As part of a
1993 Medicare beneficiary satisfaction survey, we asked 1257 randomly selected
beneficiaries about their awareness and use of two Health Care Financing
Administration   (HCFA) booklets that provide guidance to Medicare beneficiaries and
their families.

These two booklets guide Medicare beneficiaries on factors to consider when selecting
(1) a nursing home, and (2) health insurance to supplement Medicare coverage (often
referred to as Medigap insurance). According to HCFA, both booklets are available
from local Social Security offices and senior citizen organizations.

FINDINGS

Few beneficiaries were aware of or used the HCFA guides

   �	
        Nine percent of the beneficiaries surveyed were aware of the Guide ro Choosing
        a Nursing Home, and one percent had used it.

   �	
        Fourteen percent of the beneficiaries surveyed were aware of the Guide to
        Health Insurance for People with Medicare, and two percent had used it.

Benq%iaries who used the booklets found them usefi.d

Most beneficiarim stated they would use the booklets if thq needed ru.minghome care or
Medigap insurance

   �	
        Eighty-four percent of the beneficiaries surveyed said they would use the Guide
        to Choosing a Nursing Home should they need to select a nursing home.

   .	   Sixty-five percent of the beneficiaries surveyed said they would use the Guide to
        Health Insurance for People with Medicare should they need to obtain or change
        supplemental health insurance.



                                                     i
RECOMMENDATION

We recommend that HCFA work with the Social Security Administration (SSA) and
the Assistant Secretary for Public Affairs to develop a more effective strategy to make
the guides available to beneficiaries.

AGENCY COMMENTS

The Assistant Secretary for Public Affairs (ASPA), Commissioner of Social Security,
and HCFA Administrator commented on our draft report. Appendix B shows the full
text of their comments.

All agreed with our recommendation and have already begun exploring strategies to
make HCFA guides more accessible to beneficiaries. For example, HCFA and SSA
staff are working together to determine ways to improve access to Medicare
information. HCFA staff have also been considering the feasibility of making the
guides available through hospitals and physicians. ASPA suggests that the Department
advertise the guides through senior citizen groups and public service announcements.




                                            ii
                TABLE              OF CONTENTS

                                                                                                   PAGE


EXECUTIVE S~y


lNTRODU~ON        ..................         . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1



FINDINGS

   Few Beneficiaries Were Aware of or Used Guides              ...................... 5

   Users Found Guides Helpful..     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3

   Beneficiaries Are LikelytoUse   GuidesWhenNeeded                   ................... 4


RECOMMENDATION          ............................................. 5


APPENDICES
                                                                                                         A-1
   Responses toSu~ey      ..........................................
                                                                                                         B-1
   Agency Comments     ............................................
                         INTRODUCTION


PURPOSE

To determine Medicare beneficiaries’ awareness and use of the Health Care Financing
Administration’s Guide to Choosing a Nursing Home and Guide to Health Insurance for
People with Medicare.


BACKGROUND

The Office of the Assistant Secretary for Public Affairs, Department of Health and
Human Services, asked us to examine strategies used by agencies in the Department
to ensure that reports and publications are received by intended users. As part of a
1993 Medicare beneficiary satisfaction survey, we asked 1257 randomlyselected
beneficiaries about their awareness and use of two Health Care Financing
Administration   (HCFA) booklets that provide guidance to Medicare beneficiaries     and
their families.

Medicare Guides

HCFA publishes two booklets to guide Medicare beneficiaries in selecting (1) a
nursing home, and (2) health insurance to supplement Medicare coverage (often
referred to as Medigap insurance).

The Guide to Choosing a Nursing Home was first published       in 1991. The booklet
contains information on (1) factors to consider in selecting   a nursing home, and (2)
Medicare and Medicaid coverage of nursing home care.

The Guide to Health Insurance for People with Medicare was first published in 1979

and most recently revised in 1992. The booklet provides information on (1) Medicare

coverage, (2) types of Medigap policies, and (3) tips for purchasing Medigap coverage.


According to HCFA, both booklets are available from HCFA, local Social Security

offices, and senior citizen organizations. The Guide to Health Insurance for People with

Medicare is also available from State insurance departments, and through the

Medicare Handbook. The Medicare Handbook instructs beneficiaries on how to

order the health insurance guide, The Medicare Handbook is issued to all

beneficiaries when they enroll in Medicare.


Medicare l?ogram

Medicare is a Federal health insurance program for individuals age 65 and older and
for certain categories of disabled people. Authorized in 1965 by title XVIII of the
Social Security Act, Medicare paid benefitsin         1992 totalling $129 billionth
approximately 35.5 million beneficiaries.1

Within the Department of Health and Human Services, HCFA has responsibility for
administering the Medicare program.


METHODS

As part of a 1993 survey     to determine beneficiary satisfaction with Medicare; we
asked beneficiaries about     their awareness and use of HCFAS Guide to Choosing a
Nursing Home and Guide        to Health Insurance for People with Medicare. Appendix A
shows responses to these      questions.

In February 1993, we mailed a questionnaire to 1257 randomly selected beneficiaries
for whom Medicare Part B claims had been filed in Calendar Year 1991. Based upon
previous experience with similar client and beneficiary surveys, the sample size was
calculated to produce an estimate within 3.5 percent of the true value at the 95
percent confidence level. We used standard equations for estimating sample size with
a binary response variable.

Beneficiaries’ participation in the survey was voluntary. A total of 1053 beneficiaries
returned completed questionnaires, for a response rate of 84 percent. Given the size
of our sample and response rate, results of the survey are protectable to the universe
of 35 million Medicare beneficiaries. Percentages in the report are based on the
number of respondents answering each question.

We conducted this inspection in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




   lHealth Care Financing Administration,   HCFA Statistics,September 1992

   20ffice of Inspector General, United States Department   of Health and Human Services. Medicare
Beneficiary Satisfaction: 1993. 0EI-04-92-O0480.


                                                  2
                               FINDINGS

FEW BENEFICIARIES WERE AWARE OF OR USED THE HCFA GUIDES

Table 1 shows that less than 15 percent of the beneficiaries surveyed knew about the
booklets HCFA publishes to guide them in selecting nursing homes and Medigap
insurance. Only two percent or fewer of the beneficiaries surveyed had ever used
either of the guides.




                               TABLE 1

                   KNOWLEDGE AND USE OF HCFA GUIDES





 Guide to Choosing a Nursing Home                  9%                    170

 Guide to Health Insurance for People             1470                   2%
 withMedicare




BENEFICIARIES WHO USED THE GUIDES FOUND THEM USEFUL

All seven of the beneficiaries who had used the Guide to Choosing a Nursing Home

said they found the booklet helpful. Twenty-two of 24 beneficiaries who had used the

Guide to Health Insurance for People with Medicare said they found the booklet

helpful. Two users of the health insurance guide did not answer the question about

usefulness. No beneficiary said either booklet was not useful.





                                           3

BENEFICIARIES STATED THEY WOULD USE THE GUIDES IF THEY
NEEDED NURSING HOME CARE AND MEDIGAP INSURANCE

We asked all the beneficiaries surveyed if they would be likely to use the booklets if
they had a need to (1) obtain nursing home care, or (2) obtain or change Medigap
insurance. Table 2 shows that more beneficiaries would be likely to use the nursing
home guide than the guide for selecting Medigap insurance.




                                       TABLE 2
                       POTENTIAL      USE OF HCFA GUIDES




         ! Guide to Choosing a Nursing Home                 I      84%         II
          Guide to Health Insurance for People                      65%
          wi~h Medicare




                                            4

                   RECOMMENDATIONS


The guides are available from several sources, including Social Security offices, but at
least 85 percent of Medicare beneficiaries do not know about them. Thus, they
cannot benefit from the guidance on selecting nursing homes and Medigap insurance
when needed. If a larger number of beneficiaries who needed assistance knew of the
guides, use would likely increase.

We recommend that HCFA work with the Social SecurityAdministration(SSA) and
the AssistantSecretaryfor Public Affairs to develop a more effective strategyto make
the booklets availableto all beneficiaries.

The availability of these guides should be publicized to both beneficiaries and their
families. Some potential ways that could increase awareness of the guides are
mentioned below.

   �	
          Since most beneficiaries see physicians, and family members often take them,
          a list of HCFA guides could be distributed through physicians.

   �	
          Carriers could include a listing of HCFA guides with the Explanation of
          Medicare Benefits sent to beneficiaries after claims for Part B services have
          been processed.

   .	     In locations where Peer Review Organizations conduct town meetings, they
          could distribute lists of HCFA guides to attendees.

   �
          The Medicare Handbook could list all HCFA guides, not just a selected few.

   �
          Post offices could display lists of HCFA guides.




                                             5



                                                                                           —
                  AGENCY                COMMENTS

The Assistant Secretary for Public Affairs (ASPA), Commissioner of Social Security,
and HCFA Administrator commented on our draft report. Appendix B shows the full
text of their comments.

All agreed with our recommendation and have already begun exploring strategies to
make HCFA guides more accessible to beneficiaries. For example, HCFA and SSA
staff are working together to determine ways to improve access to Medicare
information. HCFA staff have also been considering the feasibility of making the
guides available through hospitals and physicians. ASPA suggests that the Department
advertise the guides through senior citizen groups and public service announcements.




                                          6

                           APPENDIX                     A


        RESPONSES TO 1993 SURVEY OF MEDICARE BENEFICIARIES


Not every respondent answered every question. Percentages are based on actual
responses. The number of respondents not answering an individual question is not
included in the calculation of percentages.



Question                                       Responses     Percentage

1.	 Medicare publishes a booklet entitled “Guide to Choosing a Niusing Home.” It
    discussesthingsto look for in selecting a nursinghome, and is availablefrom
    several offices, includingyour Social Securityoffice.

     Before today, were you aware Medicare had information on choosing a nursing
     home?

         YES                                      93                9
         NO                                      917               91
               NO ANSWER:       43


2.   Have you ever used the booklet to help you select a nursinghome?

           YEs                                     7                1
           NO                                     83                8
           I DID NOT KNOW MEDICARE
             HAD A BOOKLET ABOUT
             CHOOSING NURSING HOMES              917               91
                NO ANSWER: 46



3.   Was the booklet helpful?

     YEs                                           7                1
     NO                                            o                0
     I HAVE NOT USED THE BOOKLET                 1002              99
         NO ANSWER: 44




                                        A-1

                                                  Responses        Percentage
Question


4.	 Now that you know about the bookletj are you likely to use it if you should need
    to select a nursinghome?
                                                  805               84
           YEs                                                      16
           NO                                     149
                  NO ANSWER:    99



5.	 Medicare also has a booklet entitled “Guide to Health Insurance for People with
    Medicare.” It discussesthingsyou should look for in choosing Medigap insurmce
    to supplementyour Medicare coverage. IL too, is availableat your Social Security
       office.

       ~,           were you aware Medicare had a booklet to help you choose other
       health insurance?

                                                  139                14
             YEs                                                     86
             NO                                   875
                   NO ANSWER:   39



 6.    Have you ever used the booklet to help you select health insuranceto supplement
       your Medicare?

                                                   24                 2
             YEs                                                     11
             NO                                    114
             I DID NOT KNOW MEDICi%RE
               HAD A BOOKLET ABOUT
               CHOOSING OTHER
                                                   875                87
               HEALTH INSURANCE
                  NO ANSWER: 40


  7.    Was the booklet helpful?
                                                        22               2
                 YES

                                                        0                0
                 NO

                 I HAVE NOT USED THE

                                                    1008                 98
                   BOOKLET
                      NO ANSWER: 23



                                           A-2

Question                                       Responses          Percentage


8.	 Now that you know Medicare has a booklet to help you choose health insurance,
    are you likely to use it should you wish to purchase health insurance to
    supplement your Medicare or to change your current supplemental policy?

        YEs                                   618                 65

        NO                                    338                 35

              NO ANSWER:     97





                                       A-3

                          APPENDIX               B




                           AGENCY      COMMENTS




�       Assistant Secretary for Public Affairs




    �   Commissioner     of Social Security




    �   Administrator,   Health Care Financing Administration




                                       B-1
[~
*Y’-­


L4
   ~

           DEPARTMENT      OF HEALTH&    HUMAN       SERVICES                            Officeofthe Aaaiatant Sacfataw
                                                                                         for Public Affaira

                                                                                         Washington, D.C. 20201


    November     12,      1993

    To:            Bryan     Mitchell,      principal        Deputy    InSpf=Ctor”       General                  .

    From:          Avis     LaVelle,     Assistant        Secretary      for    Public      Affairs        &      ,

    Re:            OIG Draft Report:             “Use of Nursing          Home and Medigap
                   Guidest’  @/-  ~~~j.           1 ,Z, ~ ,


    After learning    of the woeful   underutilization           of              HCFA4S Medigap
    and Nursing    Home Guides,  I offer    these      suggestions:

    1.	     Secretary    Shalala,    HCFA Director   Bruce Vladeck and Fernando
            Torres-Gil,    Assistant    Secretary  for Aging should send
            out a joint    communique to Senior Citizen       Groups and
            publications    urging the use of these guides.

    2.	     Secretary   Shalala,     in conjunction     with some commemorative
            occasion   (such as National       Senior Citizens      month)
            should do public      service    announcements     for radio and
            television    for di.stributi.on     to commercial     and cable
            stations   particularly       in geographic    regions   heavily
            populated   by seniors.

    3.	     We should look for news events or stories             that provide                        the
            opportunity    for publicizing      the use of both of these
            guides   (for example,     a report    on a study that indicates
            the growing number of nursing          home residents     or a
            report   of the soaring      cost of health    care for the
            elderly)   . Stories    such as these would provide         a news
            hook for Vladeck,     Torres-Gil      and/or  Shalala to do
            interviews    on resource     material    that is available     to
            guide the decisions       being made with respect        to those
            topics.

     4.	     The American   Association              of   Retired     Persons      (AARP)       has    a
             newsletter   that serves          an estimated      30 million      senior
             citizens      around     the country     and a radio       network    that    is
             carried     in dozens       of markets    nationwide.         Both would
             provide     opportunities       for widespread        dissemination        of
             information       on these     consumer     guides.
            DEPARTMENT      OF HEALTH   6LHUMAN   SERVICES    8oGld   Security
                                                                             Admhl*tr8Mn


            Refer !0
                                                              Memorandum
            . m        25 1994

            Shirley  S. Chater    =ZZa$&ti
            Commissioner  of Social  Secu           ty

Subjecl:
            ~ffice of Xnspector General Draft Report,  ‘We of N~siw        Home
            and Medigap Guides,” (OEI-04-92-00481)--INFORMATION

To: “	 June Gibbs Brown

       Inspector General


            Attached is our response to the subject report.   If we can be

            of further assistance, please let Us knC3W.

            Attachment:

            SSA Response




L>         =&
‘-. ,
k
           c­
           --
           ,.
           --




           .-
           4.
           -:
                                    lumo~
       .

office 13fInsDeetar General -~
We recmnmend that tha Health Cara Finance Adminiatratim       (HCFA)
work with the Social Security  Administration and the Assistant
Secratary for Public Affairs  to develop a strate     to more
affectively make the guides available to benefit F arhs.
88A   cam   elat

We appreciate    the opportunity    to ccmment on the draft report.
We will be happy to work with JiC!~A in any strategy development      it
undertakes    for publicizing    the availability of the guides to
beneficiaries    and their family members.
�
8--:’
DEPARTMENT                                                            hed’ttl “am




     4
                          OF HEALTH&   HUMAN SERVICES                       FinerIcing AdministM’tIon
~
a

‘L                                                                          Memorandum




     -    offiw   of ~ec~or   &ne~     (OIG)   D*   R~por&   ~se of Nursing Home and
          Medigap Guides” (OEI-04-92-~81)
     To
          June Gibbs Brown
          Inspector General


          We reviewed the above-referenced report in which OIG found that a significant
          number of beneficiaries are not aware of nursing home and Medigap guides that the
          Health Care Financing Administration (HCFA) publishes to help them make more
          informed decisions about their health care.

          We concurwiththerecommendation
                                       thatHCFA work with the Social Security
          Administration and the Assistant Secretary for Public Affairs to develop a more
          effective strategy to make the booklets available to all beneficiaries. We also concur
          with most of the suggestions for ways to increase awareness of Medicare publications.

          Thank you for the opportunity to review and comment on this draft report Our
          detailed comments on the report’s findings and recommendations are attached for
          your consideration. Please advise us if you would like to discuss our mmments at
          yourearliest
convenience.


           Attachments
Recornmendation

“We recommend that HCFA work with the Social Security A~                tion (SSA) and
the Office of the As&ant Secretary for Public Affairs (OASPA) to develop a
strategy to more effectively make the booklets available to all beneficiaries.”

HCFA Remonse

We concur with the recommendation to work with SSA and OASPA to impruve our
dissemination of information to beneficiaries We believe these recommendations
complement a ntimber of ongoing HCFA initiatives. Some examples are:

o	     HCFA and SSA have established a work group of Senior Staff members who
       meet quarterly to discuss ongoing issues in an effort to improve coordination
       and dissemination of information and other operational initiatives.

0	     HCFA staff recently visited an SSA District Office to get firsthand feedback
       from representatives on ways to improve expanded access to HCFA System$
       andprovide needed information to SSA staff on Medicare programs so they
       can assistour beneficiaries more effectively.

0	     HCFA and SSA staffs are currently exploring the feasibility of an inmmgenq
       agreement with the U.S. Postal Service, the Veterans Admin@a tion, and the
       Internal Revenue Service to develop a prototype kiosk which could potentially
       contain Medicare/Medicaid and Social Security information, including       -
       information currently contained in our guides and publications.

0	     We are also working with OASPA to learn more about the expertise they can
       provide to HCFA to enhance and improve our media relations and capabilities
       to communicate with our beneficiaries. In addition, we submit all proposed
       publications developed by HCFA to OASPA for review and clearance.

We believe that continuous improvement and feedback are necesswy requirements to
effectively meet our customers’ needs. Therefore, HCFA intends to seek direct input
from beneficiary action groups, e.g., the American Association of Retired Persons
(-),       as we revise and improve our products and broaden the base of contacts
who can disseminate our publications.
Page 2

With respect to the suggestions for ways to increase public awareness of HCFA’S
guid~ we offer the following camments.

OIG Sumzestion

Since most beneficiaries see physici~ and family members often take them, a list of
HCFA guides could be distributed through physicians.

HCFA Resuonse

The report   indicatesthatthephysician’s office isa convenient location
for

disseminating   tobeneficiaries a list
                                     ofavailable
 HCFA publications and guides. We
have recently completed a series of focus groups which dealt in part with
beneficiaries’ knowledge and understanding of HCFA programs through use of our
various publications. Coincidently, one of the recomm endations of the focus groups
is to distribute information through physicians’ offices.

As a result of the findings from the focus groups and recommendations for
improvernen~ we are developing a project to reevaluate our series of publications
with respect to their usefulness, conten~ and design in an effort to maximize their
potential in the most cost-effective manner. In addition, we are looking at a number
of other ideas to improve the distribution and availability of our publications. We
believe distribution of information through physicians’ offices to be a valid
consideration.

In addition to distribution to physician% HCFA will also consider the feasibility of
making guides available to beneficiaries through hospital personnel. Because
Medicare pays for nursing home care only when it follows a hospital stay, we believe
most persons become aware of their need for this information as they approach
discharge from a hospital.

OIG Sumzestion


Carriers could include a listing of HCFA guides with the explanation of Medicare

benefits sent to beneficiaries after claims for Part B SeMCeS have been processed.


HCFA Remonse


Prior experiences have shown that adding information to the Explanation of

Medicare Benefits confuses beneficiaries. We believe mat utilizing the Medicare

Handbook as a vehicle to disseminate information regarding a list of HCFA

~ubiic3t53ns is a pmferabie abnative.     TM Medicare Flam%cok 5 se3t % newiy

entitled beneficiaries as weu as those who request the pub~~tion. ~~A    believes it.

can effectively reach its customeri using an existing mechanism.

    .
.


        Page 3

        OIG Suzzestion

        In locations where Peer Review Organizations (PROS) conduct town meeting&they
        oould distribute lists of HCFA guides to attendees

        HCFA Rcxmonse

        HCFA currently distributes publications to PROS for use at town meetings. We are
        in the process of disseminating up to 1,000 copies of the Medicare Handbook and
        Guide to Health Insurance to the PRO in North Carolina for an upcoming meeting.
        We will explore increasingthe utilization of this avenue for dissemination and
        communication.

        OIG Swwestion ,

        The Medicare Handbook could list all HCFA guides not just a select few.

        HCFA Resoonse

        HCFA will evaluate adding a complete listing of all HCFA guides in the Medicare
        Handbook.

        OIG Suwzestion

        Post offices could display lists of HCFA guides.

        HCFA Remonse

        HCFA will be broadening the scope of organizations to consider post offices and
        other public places that can disseminate publications as we continue to improve our
        communications with beneficiaries.

        TECHNICAL COMMENTS

        The report does not recognize that every insurer selling health insuranoe or accident
        or sickness insurance that provides hospital or medical expense caverage to elderly
        Medicare beneficiaries is required to deliver to all prospective buyers a copy of the
        Medigap Buyers Guide (the Guide), which was jointly developed by ~CFA and the
        National Association of Insurance Commissioners (NAIC). This quirement is
        contained in section 16 of the lWLICmodel regulation for Medigap policies. The
        hLUC model regulation is incorporated by reference into section 1882 of the Social
        Securiiy Act [the Act). Therefore, it has the force of Federal law. Section 1182 of
        the Act requires alI States to have in force Medigap standards that are at least as
        stringent as those contained in the NAIC model regulation.
,


    Page 4

    Given this requiremen~ and the fa~ that appr~ate~        75 percent of ben*&iaries
    have some type of insurance to supplement Me&~        it is puzzling to us that the
    Guide is so little known to benefitia,ri~ HCF’A believes that bene&cia&s may not
    -gnize    the Guide they receive horn the insurer as a HCFA publicati~ because
    most insurers either obtain camera ready copies of the Guide and reproduce their
    own copies or reprint the text in another format wtich is required to be cmsistent
    with the NAIC modek Because insurers attach their own logo to the Guide, many
    purchasers may be unaware that the Guide in this fornq is a HCFA publication.
    Additionally, the insurers may not be compl@g with tie NAIC requirement which
    eve~ State should enforce as part of its Medigap regulatory program. Although
    insurers are required to deliver the Guide to prospective buye~ HCFA has no way
    of knowing whether they actually comply with the law, since enforcement is a State
    responsibility.

    During the exit conference, it was mentioned that the average age   of the beneficiary
    surveyed was between 73 and 74. We have found that benefitities       in the 65-68 age
    group are more likely to be faced with the decision about whether   to purchase
    Medigap insurance (i.e., because they are ceasing work and m-g       decisions about
    Medicare Part B coverage at this time).

    Since the time that the beneficiaries were surveye~ there has been increased
    outreach by the AMRP and the Health Insuran~ In.formatio~ Counseling and
    kistance (ICA) programs. ICA was created by the Omnibus Budget Reconciliation
    Act of 1990 and funded for Fiscal Years 1992 and 1993. This grant programfunds
    all the States to provide information to Medicare beneficiaries. The Guide to Health
    Insurance for People With Medicare is one of the required publications for this
    program. A Guide to Selecting a Nursing Home is an optional publication for use by
    the States. These State ICA programs provide one mech-           for dissemination of
    these and other pamphlets as well as one-on-one cxmnseli.ngfor questions.
    Beneficiaries who were in the 65-68 age group at the time the survey was conducted
    have received additional counseling and information. Because these improvements
    took effect after the study’s cornpletio~ HCFA believes that if another sunwy was
    conducted the results would be more favorable. These ICA programs are now part
    of HCFA’S strategy for information dissemination.

    If such a survey is reconducte~ we would fid it helpful if the stmey asks the
    interviewees whether they had ever purchased or applied for any Medigap or health
    insurance policy to supplement their Medicare coverage and whether they had
    received a copy of the Guide from the insurer at the time of the purchase.
Page 5

We believe a sample cmrfined to recent purchasers of Medigap insurance would alSO
give us more reoent data on whether they used the Guide in their pumhase deoision.
We believe the same is true with regard to the nursing home guide. ‘Xl&booklet is
only relevant to the beneficiary when they need to make suoh a decision. In any
future restweying, we suggest OIG ask providers and discharge planners if they are
disseminating the Guide for Nursing Homes at probable decision points

EDITORXAL COMMENTS

k the recommendation sentence on page ii and page 5 of tie repo~ we suggest that
the phrase “to develop a strategy to more effectively make the guides available” be
changed to, “to develop a more effective strategy to make the guides available.”

The word “guide”should be inserted after HCFA on page 5, the third bullet item.
